1/22/2021

Visa Cash Rewards - Terms and Conditions

(https://www.popular.vi/)

Visa Cash Rewards - Terms and Conditions

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

1.99% introductory APR for the rst 6 months.
After that, your APR will be from 13.24% up to 26.24% , based on
your creditworthiness. This APR will vary with the market based on
the Prime Rate. 1

APR for Balance Transfers

0.00% introductory APR and 0 payments from the transfer date for
12 months and $0 balance transfer fee. Applies to transfers made
within the rst 90 days from account opening. Requires
cancellation of the credit card from which the balance is
transferred.
After that, your APR will be from 13.24% up to 26.24%, based on
your creditworthiness. This APR will vary with the market based on
the Prime Rate. 1

APR for Cash Advances

24.24% to 28.24% when you open your account, based on your
creditworthiness.
This APR will vary with the market based on the Prime Rate. 1

https://www.popular.vi/cards/credit-cards/cash-rewards/terms-and-conditions/usvi/

1/6

1/22/2021

Visa Cash Rewards - Terms and Conditions

Interest Rates and Interest Charges
Penalty APR and When it Applies

29.99% This APR may be applied to your account if you miss a
required minimum payment for a period of sixty (60) consecutive
days from its due date.
How Long Will the Penalty APR Apply? If your APRs are increased
for this reason, the Penalty Rate will remain in e ect until the
account becomes current and 6 consecutive required minimum
payments are received on or before the payment due date.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle.
You will not be charged interest from the time you purchased
goods or services, if you pay your full account balance by the
Payment Due Date. In the event you don't pay the full account
balance, while in the Grace Period, you will not pay interest on the
amount paid for that cycle. On subsequent cycles you will not have
a Grace Period until you pay your full account balance on time for
two cycles in a row. Amounts related to certain o ers will not be
taken into consideration in determining the Grace Period. Please
refer to the o er terms and conditions. The No Grace Period
Transactions begin to accrue interest on the date they are posted
and remain subject to Interest Charges until paid in full.

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau (http://www.consumer nance.gov/learnmore/).

Fees

https://www.popular.vi/cards/credit-cards/cash-rewards/terms-and-conditions/usvi/

2/6

1/22/2021

Visa Cash Rewards - Terms and Conditions

Fees
Annual Fee

$0 Annual Fee
$0 Additional Card Fee

Transaction Fees
• Cash Advances and Convenience Checks
• Balance Transfers
• Foreign Transaction

2% of the amount of each transaction (minimum $2; maximum
$10)
2% of the amount of each transfer (minimum $2; maximum $10)
1% of each transaction in U.S. dollars for Visa International

Penalty Fees
• Returned Payment

Up to $10

• Late Payment

Up to $38

How we will calculate your balance: We use a method called "average daily balance" (including new transactions).
Loss of introductory APR: We may end your introductory APRs and apply the corresponding APRs if you close your
account or if you miss a payment.
Billing Rights: Information on your right to dispute transactions and how to exercise this right is provided in your
Credit card Agreement.

I con rm I have reviewed the credit card Price and Terms and agree to submit my application.
I authorize Popular to obtain my credit report, as speci ed here (/credit-report).
I con rm I have reviewed Popular’s Privacy Policy, as speci ed here (/privacy).
I agree with the website’s Terms of Use, as speci ed here (/terms).

https://www.popular.vi/cards/credit-cards/cash-rewards/terms-and-conditions/usvi/

3/6

1/22/2021

Visa Cash Rewards - Terms and Conditions

I agree with the Electronic Banking Services Agreement, as speci ed here
(https://documents.popular.com/terms/mibanco/terms-conditions-en).


Agree

Continue

The information on card costs described is correct as of December 31, 2020.
This information may have varied after this date. To verify what may have changed in this information call (787) 7580505 or toll free 1-800-981-9505 or write to the following address:
Popular de Puerto Rico
Card Products Division (643)
PO BOX 363228, San Juan, Puerto Rico 00936-3228
IMPORTANT NOTICE USA PATRIOT ACT
Section 326 of the USA PATRIOT Act was e ective on April 17, 2015. This law requires nancial institutions to obtain,
verify, and record the information that identi es persons opening accounts. The USA government created this law as a
measure to ght terrorism and money laundering.
When you open an account:
We will ask your name, home or street address, date of birth, social security number, and any other information
deemed necessary to allow us to positively identify you.
We will ask to see your valid driver's license or other valid identi cation with photo issued by the government.
Thanks for allowing us to serve you. Con dentiality of the information gathered by Popular, Inc. will be maintained as
required under the Privacy Act.
1

For each billing period, the Interest Charge and APR will be determined by adding the Prime Rate, as published by
the Wall Street Journal, to a margin. The variable rates illustrated are based on a Prime Rate of 3.25% in e ect March
16, 2020.
https://www.popular.vi/cards/credit-cards/cash-rewards/terms-and-conditions/usvi/

4/6

1/22/2021

Visa Cash Rewards - Terms and Conditions

Back to top

(https://www.facebook.com/PopularVI)

Contact us (contact-us/)
Español (https://www.popular.vi/es/tarjetas-credito/cash-rewards/terminos-y-condiciones/usvi/)

Online Security (https://www.popular.com/en/security/)
FDIC Insurance Notice (fdic/)
Privacy Policy (https://www.popular.com/en/privacy/)
Terms and Conditions of Use (terms/)
Diversity and Inclusion Policy (https://www.popular.com/en/diversity-policy/)
Accessibility (accessibility/)
Weblinking Practices (weblinking-practices/)
ZAPortal for Employees (https://zap.popularinc.com)
ZAPortal Popular Retirees (https://zap.popularinc.com/zaplogon/rsa_step1.jsp)
Find a Branch or ATM (https://locator.popular.com/?lang=en&region=vi)

https://www.popular.vi/cards/credit-cards/cash-rewards/terms-and-conditions/usvi/

5/6

1/22/2021

Visa Cash Rewards - Terms and Conditions

Bank Routing Number
021502011

TeleBanco Popular®
1.888.724.3659

Hearing impaired (TDD)
1.800.981.9666

Contact us
Rte 308, Charlotte Amalie West, St Thomas 00802, USVI

© 2021 Popular. Member FDIC, except BVI.

https://www.popular.vi/cards/credit-cards/cash-rewards/terms-and-conditions/usvi/

6/6

